No.
October Term, 2020
In the

Supreme Court of the United States
Daniel Page,
Petitioner,
v.
Renee Baker, et al.,
Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Certificate of Service
Rene L. Valladares
Federal Public Defender,
District of Nevada
*C.B. Kirschner
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
CB_Kirschner@fd.org
*Counsel for Daniel Page

I, C.B. Kirschner, an attorney who is authorized to file a Petition
for Writ of Certiorari on behalf of Daniel Page, hereby certify that all
parties required to be served have been served on this 27th day of July
2020, in accordance with Rule 28.4(a), one copy of the foregoing Petition
for Writ of Certiorari, Appendix, and Motion for Leave to Proceed In
Forma Pauperis by delivering said copy to a third party commercial
carrier for delivery, to Geordan Goebel, Deputy Attorney General, 100
N. Carson Street, Carson City, Nevada 89701, counsel for the
Respondent herein. I further certify that in accordance with Rule 29.3,
an electronic version of the foregoing was also served.

/s/ CB Kirschner
C.B. Kirschner
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, NV 89101
(702) 388-6577
CB_Kirschner@fd.org

